Nos. 19-431 & 19-454
IN THE

Supreme Court of the United States
————
LITTLE SISTERS OF THE POOR SAINTS
PETER AND PAUL HOME,
Petitioner,
v.

COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.
————
DONALD J. TRUMP, PRESIDENT OF
THE UNITED STATES, et al.,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.
————
On Writs of Certiorari to the
United States Court of Appeals
for the Third Circuit
————
BRIEF AMICI CURIAE OF
THE CENTER FOR INQUIRY, INC.,
AMERICAN ATHEISTS, INC., AND THE
AMERICAN HUMANIST ASSOCIATION,
IN SUPPORT OF RESPONDENTS
————
NICHOLAS J. LITTLE
CENTER FOR INQUIRY, INC.
1012 14th St. NW
Suite 205
Washington, D.C. 20005
GEOFFREY T. BLACKWELL
AMERICAN ATHEISTS
718 7th St. NW
Washington, D.C. 20001

EDWARD TABASH
Counsel of Record
11500 West Olympic Blvd.
Suite 400
Los Angeles, CA 90064
(310) 279-5120
etabash@centerforinquiry.org
MONICA L. MILLER
AMERICAN HUMANIST
ASSOCIATION
1821 Jefferson Place, NW
Washington DC 20036

Counsel for Amici Curiae
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................

iii

STATEMENT OF INTEREST ............................

1

SUMMARY OF ARGUMENT .............................

2

ARGUMENT ........................................................

5

I. THERE IS NO CONSTITUTIONAL
RIGHT TO AN EXEMPTION ..................

5

A. Permissive religious exemptions to
laws of general applicability are subject to Establishment Clause Review ....

5

B. The enjoined exemption violates the
Establishment Clause by burdening
third parties .........................................

7

II. PETITIONER
CANNOT
DEMONSTRATE A SUBSTANTIAL BURDEN
ON ITS RELIGIOUS BELIEFS ...............

11

A. Any cognizable burden was relieved
by the prior accommodation ................

11

B. A requirement to inform the government that one has a religious
objection to a regulation is not a
“substantial” burden............................

14

C. Compliance penalties are not a “substantial burden.” ..................................

17

III. PETITIONER’S CASE DOES NOT CONCERN A BURDEN ON RELIGIOUS
LIBERTY,
BUT
RATHER
AN
ATTEMPT TO LEGISLATE THROUGH
THE COURTS ...........................................

20

(i)

ii
TABLE OF CONTENTS—Continued
Page
IV. THE GOVERNMENT HAS A COMPELLING INTEREST IN ENSURING THE
WIDESPREAD AVAILABILITY OF
CONTRACEPTIVE
SERVICES
TO
WOMEN ....................................................

27

CONCLUSION ....................................................

30

iii
TABLE OF AUTHORITIES
CASES

Page(s)

Adams v. Commr.,
170 F. 3d 173 (3d Cir. 1999), cert denied
528 U.S. 1117 (2000) .................................

21

Bowen v. Roy,
476 U.S. 693 (1986) ....................... 21, 22, 23, 24
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014) ..................................passim
City of Boerne v. Flores,
521 U.S.507 (1997) ....................................

6

Edison Co. v. Labor Bd.,
305 U.S. 197 (1938) ...................................

15

Empl. Div. v. Smith,
494 U.S. 872 (1990) ................................... 3, 5, 6
Epperson v. Arkansas,
393 U.S. 97 (1968) .....................................

7, 8

Est. of Thornton v. Caldor, Inc.,
472 U.S. 703 (1985) ..................................

9

Geneva College v. Sec. U.S. HHS,
778 F.3rd 422 (3d Cir. 2015).....................

17

Gonzales v. O Centro Espirita
Beneficente Unaio do Vegetal,
546 U.S. 418 (2006) ........................... 7, 8, 13, 18
Holt v. Hobbs,
574 U.S. 352 (2015) ...................................

9

INS v. Cardoza-Fonseca,
480 U.S. 421 (1987) ...................................

14

Locke v. Davey,
540 U.S. 712 (2004) ...................................

10

iv
TABLE OF AUTHORITIES—Continued
Page(s)
Marbury v. Madison,
5 U.S. 137 (1803) .......................................

6

Penn. v. President United States,
930 F.3d 543 (3rd Cir. 2019).....................

2

Priests for Life v. U.S. HHS,
772 F.3rd 229 (D.C. Cir. 2014) ................. 14, 16
Richardson v. Perales,
402 U.S. 389 (1971) ...................................

15

Sherbert v. Verner,
374 U.S. 398 (1963) ...................................

5, 6

T.W.A. v. Hardison,
432 U.S. 63 (1977) .....................................

9

Thomas v. Review Bd. of Ind. Empl. Sec.
Div., 450 U.S. 707 (1981) ..........................

25

Trump v. Penn.,
140 S. Ct. 918 (2020) .................................

2

United States v. Lee,
455 U.S. 252 (1982) ......................... 9, 22, 23, 26
University of Notre Dame v. Burwell,
136 S. Ct. 2007 (2016) ...............................

23

University of Notre Dame v. Burwell,
575 U.S. 909 (2015) ...................................

17

University of Notre Dame v. Burwell,
786 F. 3d 606 (7th Cir. 2015) ....................

23

University of Notre Dame v. Sebelius,
743 F.3d 547 (7th Cir. 2015) ..................... 17, 24

v
TABLE OF AUTHORITIES—Continued
Page(s)
Welsh v. United States,
398 U.S. 333 (1970) ...................................

24

Wisconsin v. Yoder,
406 U.S. 205 (1972) ................................... 13, 18
Zubik v. Burwell,
136 S. Ct. 1557 (2016) ............................... 14, 17
CONSTITUTION
U.S. Const. amend. I ...................................passim
STATUTES AND REGULATIONS
1 U.S.C. § 1 ...................................................

14

42 U.S.C. § 300gg-13(a) ................................

2, 8

42 U.S.C. § 300gg-13(a)(4)............................

12

50 U.S.C. § 3806(j) ........................................

18

Religious Freedom Restoration Act, 42
U.S.C. § 2000bb et seq. .............................passim
§ 2000bb-1(a) ................................................

12

§ 2000bb-1(b) .............................................

12

Wis. Stat. § 118.15 ........................................ 13, 19
21 C.F.R. § 1307.03 ......................................

13

21 C.F.R. § 1308.11 ......................................

18

26 C.F.R. § 54.9815-2713 .............................

12

32 C.F.R. § 1636.2 ........................................

19

32 C.F.R. § 1636.6 ........................................

19

32 C.F.R. § 1636.8 ........................................

19

vi
TABLE OF AUTHORITIES—Continued
Page(s)
45 C.F.R. § 147.130(a)(iv) .............................

12

45 C.F.R. § 147.131ff ....................................

12

OTHER AUTHORITIES
Administration issues final rules on
coverage of certain recommended preventive services without cost sharing, HHS
(July. 10, 2015) available at https://way
back.archiveit.org/3926/20170127190158
/https://www.hhs.gov/about/news/2015/0
7/10/administration-issues-final-rules-oncoverage-of-certain-recommended-preve
ntive-services-without-cost-sharing.html
(last visited Apr. 1, 2020) .........................

13

CVS, Plan D One-Step Emergency Contraception Tablet, https://www.cvs.com/
shop/plan-b-one-step-emergency-contrac
eptive-tablet-prodid-876669 (last visited
Apr. 1, 2020) ..............................................

28

Frederick M. Gedicks & Rebecca G. Van
Tassell, RFRA Exemptions from the
Contraception Mandate: An Unconstitutional Accommodation of Religion, 49
Harv. C.R.-C.L. Rev. 343 (2014) ...............

28

J.J. Frost, et al., Return on Investment: A
Fuller Assessment of the Benefits and
Cost Saving of the US Publicly Funded
Family Planning Pro-gram, 92 Milibank
Q. 667 (2014) .............................................

29

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Marci A. Hamilton, The Religious Freedom
Restoration Act is Unconstitutional,
Period, I U. Pa. J. Const. L. 1 (1998-99). .

7

Planned Parenthood, IUD, https://www.
plannedparenthood.org/learn/birth-cont
rol/iud (last visited Apr. 1, 2020)..............

27

Planned Parenthood, Emergency Contraception (Morning-After Pill), https://www.
plannedparenthood.org/get-care/our-ser
vices/emergency-contraceptive (last visited
Apr. 1, 2020) ..............................................

28

Substantial, Black’s Law Dictionary (11th
Ed. 2019) ...................................................

15

Substantial, New Oxford Am. Dictionary
(3d Ed., Oxford U. Press 2010) .................

15

STATEMENT OF INTEREST1
This amici curiae brief in support of the respondents
is being filed on behalf of the Center for Inquiry (CFI),
American Atheists, Inc. (American Atheists), and the
American Humanist Association (AHA).
CFI is a non-profit educational organization dedicated to promoting and defending reason, science, and
freedom of inquiry. Through education, research, publishing, social services, and other activities, including
litigation, CFI encourages evidence-based inquiry into
science, pseudoscience, medicine and health, religion,
and ethics. CFI believes that the separation of church
and state is vital to the maintenance of a free society
that allows for a reasoned exchange of ideas about
public policy.
American Atheists is a national civil rights organization that works to achieve religious equality for
all Americans by protecting what Thomas Jefferson
called the “wall of separation” between government
and religion created by the First Amendment. American Atheists strives to promote understanding of
atheists through education, advocacy, and communitybuilding; works to end the stigma associated with
atheism; and fosters an environment where bigotry
against our community is rejected.

1

All parties have granted blanket consents to the filing of
amicus briefs. Their consents are on file with the Clerk of the
Court. No counsel for a party authored this brief in whole or in
part, and no party or counsel for a party made a monetary contribution intended to fund its preparation or submission. No person other than amici and their counsel made a monetary contribution to the preparation or submission of this brief.

2

The AHA is a national nonprofit membership organization based in Washington, D.C. Founded in 1941,
the AHA is the nation’s oldest and largest humanist
organization. The AHA has tens of thousands of members and hundreds of chapters and affiliates across the
country. Humanism is a progressive lifestance that
affirms—without theism or other supernatural beliefs—
our responsibility to lead meaningful and ethical lives
that add to the greater good of humanity. The mission
of the AHA’s legal center is to protect one of the
most fundamental principles of our democracy: the
separation of church and state. To that end, the
AHA has litigated dozens of First Amendment cases
nationwide, including in the U.S. Supreme Court.
SUMMARY OF ARGUMENT
This case concerns a religious-based exemption, currently subject to a national injunction, to the requirement under the Affordable Care Act (ACA) to provide
health insurance which covers contraceptive care at no
cost to employees. 42 U.S.C. § 300gg-13(a). Petitioner,
Little Sisters of the Poor, maintains that the Religious
Freedom Restoration Act (RFRA), 42 U.S.C. § 2000bb
et seq., either requires or permits the exemption
currently enjoined by the Third Circuit. However, any
requirement under the Constitution or legislation was
more than satisfied by the prior accommodation.
Indeed, the enjoined exemption is unconstitutional as
a violation of the Establishment Clause.2

2

Amici maintain that as regards the new, enjoined, exemption, “the Agencies did not follow the [Administrative Procedures
Act] and that the regulations are not authorized under the ACA.”
Penn. v. President United States, 930 F.3d 543, 556 (3rd Cir.
2019), cert. granted Trump v. Penn., 140 S. Ct. 918 (2020).

3

First, there exists no Free Exercise Clause right to
the enjoined exemption. Congress does not impinge on
the right to free exercise by enacting a law of general
applicability, even if that law impacts an individual’s
or a group’s ability to practice religion. Empl. Div. v.
Smith, 494 U.S. 872, 879 (1990). Any exemption
granted under RFRA is legislative, not constitutional,
and so must withstand constitutional scrutiny. As this
Court has held on multiple occasions, exemptions to
laws granted in order to protect individual religious
expression are unconstitutional as violative of the
Establishment Clause if they shift the burden from the
religious complainant to a third party. Here, petitioner
seeks to eliminate its alleged religious burden by
creating a burden on its employees who will be denied
the seamless and copayment-free contraceptive benefits guaranteed by the ACA.
Second, petitioner cannot demonstrate that it has
suffered the requisite “substantial burden” on religion
to warrant relief under RFRA. The pre-existing accommodation fully removed any real burden on its religious beliefs.3 What petitioner objects to is the requirement that it must inform the government of its
intention to exercise the accommodation. Such a requirement has never been held to be a burden by
this Court. Recognizing it as a substantial burden, as
petitioner claims, would render the word “substantial”
in RFRA meaningless, and thus rewrite democratically enacted legislation. RFRA has always been held
to require that when a substantial burden on religion
is found that the government cannot justify by a
compelling interest, an accommodation be offered to
parties making a claim of a religious burden. This is
3

Amici do not accept that the prior accommodation was either
necessary or permissible.

4

precisely what the government did. This Court has
never held that a requirement to notify the government of a desire to avail oneself of such an accommodation can itself be considered a substantial burden
on religion.
Third, petitioner’s theory of causation, claiming a
religious burden caused by requiring it to notify the
government of a desire to take advantage of an
accommodation, knows no limits. If accepted, it would
not only allow religious groups to refuse to directly
participate in legitimate governmental activities, such
as the regulation of health care, the provision of social
security, or the military draft, but also to demand that
no person replace them to fulfil the government’s
intentions. RFRA was never intended to grant religious groups such an absolute veto over government
policy.
Fourth, even if this Court determines that a substantial burden on religion exists, the interest of the
government in the widespread provision of contraceptive services to women at zero copayment cost is a
compelling one, sufficient to overcome any burden on
petitioner.
The enjoined exemption is therefore not required by
the Free Exercise Clause or by RFRA, and, in fact,
would violate the Establishment Clause, by creating a
burden for third parties. Accordingly, it must be
rejected by this Court.

5

ARGUMENT
I. THERE IS NO CONSTITUTIONAL RIGHT
TO AN EXEMPTION.
A. Permissive religious exemptions to
laws of general applicability are subject to Establishment Clause Review.
For many years, the availability of exemptions for
religious groups or individuals from laws which did
not specifically target those religions was governed
by the Sherbert Test, expounded by this Court in
Sherbert v. Verner, 374 U.S. 398, 406 (1963). This test
granted exemptions to laws that placed substantial
burdens on the ability to practice religion based on the
First Amendment right to free exercise of religion. In
Sherbert, a factory worker was terminated for refusing
to work on Saturday, the Sabbath for her religion of
Seventh Day Adventism. Id. at 399. South Carolina
denied her unemployment benefits, claiming she was
voluntarily unavailable for work. Id. at 401. This
Court ruled that the state could not, absent a compelling government interest, condition access to a governmental program such as unemployment benefits by
placing a substantial burden on a person’s religious
freedom–here the right to observe the Sabbath as that
person saw fit. Id. at 403-04.
Twenty-seven years later, however, in Smith, the
Court ruled that a law which did not specifically target
religion, but which had the incidental effect of burdening religious adherents, did not require an exemption. 494 U.S. at 878-79 (“We have never held that
an individual’s religious beliefs excuse him from
compliance with an otherwise valid law prohibiting
conduct that the State is otherwise free to regulate.”).

6

Consequently, the state had no obligation to show that
the law served a compelling government interest.
In response, Congress enacted RFRA with the
express purpose of restoring the Sherbert Test and
applying the compelling interest test once again to
government-imposed burdens on religion. Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682, 746 (2014)
(Ginsburg, J. dissenting, internal citations omitted)
(“RFRA’s purpose is specific and written into the
statute itself. The Act was crafted to ‘restore the
compelling interest test as set forth in Sherbert v.
Verner.’”). Importantly, this grants a legislative, not a
constitutional right. This Court in Smith, 494 U.S. at
880-81, determined the extent to which the Free
Exercise Clause protects individuals from burdens on
religious practice imposed by laws of general applicability. RFRA, as a legislative enactment, granted protections beyond those constitutional rights. Such
permissive rights granted by an Act of Congress are
subject to constitutional scrutiny by this Court. An
exemption sought under RFRA which violates the
Establishment Clause is not permitted. Congress does
not have the authority to violate the Constitution. Nor
can Congress overrule a Supreme Court determination of the extent of constitutional protections, short of
the passage of an actual constitutional amendment.
Marbury v. Madison, 5 U.S. 137, 177 (1803) (The Constitution is “superior, paramount law, unchangeable
by ordinary means . . . [It is not] alterable when the
legislature shall please to alter it.”) Any exemption
claimed under RFRA must therefore pass constitutional review under the Establishment Clause.
Despite being ruled unconstitutional as applied to
the states by this Court, City of Boerne v. Flores,
521 U.S.507, 536 (1997), RFRA has been treated as

7

facially constitutional regarding the federal government.4 Facial constitutionality does not end the scrutiny, as laws may still be applied in ways which violate
the constitution. The Establishment Clause “mandates government neutrality between religion and
religion, and between religion and non-religion.”
Epperson v. Arkansas, 393 U.S. 97, 104 (1968). To
decide that merely giving notice in order to obtain an
exemption from a law of general applicability, in itself,
substantially burdens religion would make a mockery
both of RFRA and of real burdens on religious practice
and belief.
B. The enjoined exemption violates the
Establishment Clause by burdening
third parties.
As discussed, supra, the expressed purpose of RFRA
is to defend the freedom of an individual or group
to practice religion against restrictions imposed by
government. For example, in Gonzales v. O Centro
Espirita Beneficente Unaio do Vegetal, 546 U.S. 418,
423 (2006), members of a Brazilian church located in
New Mexico were denied permission to use a tea
brewed from plants unique to the Amazon Rainforest,
because the tea contained a hallucinogen controlled
under federal law. Church members drank the tea as
part of a religious ritual. This Court ruled unanimously that because the government did not demonstrate a compelling interest in denying the church
4

Amici do not concede the constitutionality of RFRA, noting
that it grants special privileges to religion which violate the
Establishment Clause. Marci A. Hamilton, The Religious Freedom
Restoration Act is Unconstitutional, Period, I U. Pa. J. Const. L.
1, 19 (1998-99). Without conceding this, amici emphasize that
RFRA should not be extended to legitimize further violations of
the Constitution.

8

access to the plants, it must, under RFRA, accommodate the religious exercise of the church. Id. at 439.
The fundamental difference between the exemption
requested by the religious group in O Centro and that
enjoined here lies in the impact on third parties. When
the New Mexico church members were permitted an
exemption from the Controlled Substances Act to
drink hallucinogenic tea as part of a religious ceremony, no other party was harmed, or indeed impacted
at all.5 The government imposed the burden on the
church and could remove it without impacting the
rights of other people. Petitioner, on the other hand,
now seeks to remove from its employees a right
guaranteed to them by the ACA – the right to receive
contraceptive coverage with zero copayments. 42 U.S.C.
§ 300gg-13(a).6 RFRA permits the government to
remove a burden on religious practices created by
government action. Shifting a burden from petitioner
to third parties, in order to accommodate petitioner’s
religious beliefs, however, represents a preference that
is being granted to those religious beliefs over and
above the beliefs, or lack thereof, of the employees.
Such a preference strikes at the very heart of the
Establishment Clause. Epperson, 393 U.S. at 104.
When this Court has considered religious exemption
requests which impose a burden on a third party, it
has rejected those requests. A Connecticut law requir5

As noted, amici maintain all such religious exemptions are
a violation of the Establishment Clause. Supra, n.4. Where
exemptions are granted, however, a plain reading of the Constitution mandates that they do not impose harmful burdens on third
parties.
6

Petitioner here seeks not only to refuse to pay for insurance
coverage for contraceptives, but also to prevent insurance companies from providing it free of charge.

9

ing businesses to honor requests from their employees
not to work on their Sabbath day was struck down
as violative of the Establishment Clause because it
“took no account of the convenience or interests of the
employer or those of other employees who do not
observe a Sabbath.” Est. of Thornton v. Caldor, Inc.,
472 U.S. 703, 709 (1985) (emphasis added). Similarly
a Sabbatarian airline employee was not entitled to
a change in the shift structure at his place of
employment to accommodate his religious preference
for not working on Saturdays, as granting that request
would “deprive another employee of his shift preference at least in part because he did not adhere to a
religion that observed the Saturday Sabbath.” T.W.A.
v. Hardison, 432 U.S. 63, 81 (1977). And Amish employers were required to continue to pay social security
contributions for their employees despite their sincere
religious objections because granting such an exemption would harm the interests of the employees who
should be free to make their own choices as to the
moral implications of involvement in a government
run retirement savings program. United States v. Lee,
455 U.S. 252, 261 (1982) (An exemption would “operate[]
to impose the employer’s religious faith on the employees.”). Most recently, an exemption allowing a beard
for religious purposes was granted to a prisoner where
“accommodating petitioner’s religious beliefs . . . would
not detrimentally affect others.” Holt v. Hobbs, 574
U.S. 352, 370 (2015) (Ginsburg, J., concurring).
This Court’s decision in Hobby Lobby, 573 U.S. at
682, that the contraceptive mandate could not be
imposed on for-profit, closely held corporations that
expressed a religious view that conflicted with providing certain types of contraception, does not change this
analysis. Hobby Lobby does not imply any retreat from
this Court’s longstanding refusal to grant religious

10

exemptions where there will be a burden shifted onto
a third party. Key to the willingness of this Court to
grant Hobby Lobby its requested exemption was the
existence of the very accommodation for non-profits
that this petitioner now deems unacceptable. Id. at
692 (Kennedy, J. concurring) (“[T]he Government has
not met its burden of showing that it cannot accommodate the plaintiffs’ similar religious objections
under this established framework.”). By allowing forprofit religiously owned corporations to access the
same exemption that non-profit religious corporations
could access, the burden would not be placed on the
third party employees, who would still receive their
coverage. Petitioner, here, however, demands a complete and total exemption that will create obstacles to
its employees’ ACA rights, without any consideration
of whether those employees will continue to receive
the promised benefit and the degree of increased
burden they will suffer seeking to obtain it.7
The enjoined exemption therefore replaces any
alleged burden on petitioner with a significant burden
on a third party: petitioner’s employees. Imposing
such a burden violates the Establishment Clause, and

7

The baseline from which we must consider whether a burden
has been imposed on a third party is the situation that would
exist absent the exemption. Locke v. Davey, 540 U.S. 712, 726
(2004) (Scalia, J., dissenting) (“[W]hen the State makes a public
benefit generally available, that benefit becomes part of the
baseline against which burdens on religion are measured.”)
Therefore the benefit, the availability of contraception without
copayment, is considered the baseline for employees. Granting
this exemption, and thus removing the benefit from those employees, cannot be seen in any way other than imposing a burden on
those third parties in order to accommodate the religion of petitioner. Infra § II.

11

cannot therefore be required by or permitted under
RFRA.
II. PETITIONER CANNOT DEMONSTRATE
A SUBSTANTIAL BURDEN ON ITS RELIGIOUS BELIEFS.
A. Any cognizable burden was relieved by
the prior accommodation.
For the purposes of this brief, amici assume that
the contraceptive mandate does impose a substantial
burden on petitioner’s religious beliefs. What petitioner fails to acknowledge, however, is that the
government had already met any requirement it might
have under RFRA to ease that burden, by providing
religious objectors with an accommodation which
permitted them to opt out from covering contraception.
Religious organizations cannot demonstrate that a
requirement that they merely give notice of their
religious objection to the contraception coverage requirement represents a substantial burden on their
religious exercise. Absent a demonstration of a substantial burden, no exemption under RFRA is allowed.
In the final analysis, petitioner is not claiming there
remains a burden on its religious beliefs. It claims that
it dislikes the method the government provided for
avoiding that burden. RFRA guarantees a religious
plaintiff the right to an exemption in certain limited
situations. It does not, however, guarantee to a religious plaintiff the right to dictate to the government
the method for accepting that exemption.
As part of regulations established by the Department of Health and Human Services (“HHS”) under
the ACA, employer group health plans are required to
provide “preventive care and screenings” for women
per the Women’s Health Amendment and “shall not

12

impose any cost sharing requirements.” 42 U.S.C.
§ 300gg-13(a)(4). This preventive care requires employers to provide coverage for all forms of contraceptive
methods approved by the Food and Drug Administration. 26 C.F.R. § 54.9815-2713; 45 C.F.R. § 147.130(a)(iv).
But HHS also provided a religious accommodation
to the contraception coverage requirement that is
available to religious entities and to for-profit closely
held corporations with a religious objection to the
mandate. 45 C.F.R. § 147.131ff; Hobby Lobby, 573
U.S. at 682. Under that accommodation, all that was
required was to affirm that such organizations were
eligible, via a form to their insurer or third-party
administrator (TPA) or a letter to the HHS Secretary,
including a list of which forms of contraception the
employer objected to providing. The notice was required to specify the name and type of the plan, and
the contact information of the plan issuer or TPA.
There were no further requirements of the employer.
RFRA prohibits the federal government from “substantially burden[ing] a person’s exercise of religion
even if the burden results from a rule of general
applicability” unless the government “demonstrates
that application of the burden to the person—(1) is
in furtherance of a compelling governmental interest;
and (2) is the least restrictive means of furthering
that compelling governmental interest.” 42 U.S.C.
§§ 2000bb-1(a), (b). As this Court has determined that
the contraceptive mandate imposes a substantial
burden on religious exercise, within the meaning of
RFRA, and ruled against the government, Hobby
Lobby, 573 U.S. at 682, it is necessary to see what
solution has been held to satisfy the requirements of
RFRA.

13

Courts have been satisfied when the government
has provided a successful plaintiff with an accommodation to the objected to aspects of the law. E.g. 21
CFR 1307.03 (after O Centro, 546 U.S. 418, government created accommodation allowing a person to file
for an exception to the Controlled Substances Act);
Wis. Stat. § 118.15 (after Wisconsin v. Yoder, 406 U.S.
205 (1972), accommodation allowing parents to
remove students from school before age 18 for religious
reasons upon notice to school officials.).
In the present case, the government had already
provided an accommodation for those non-profit
employers who object on religious grounds to the
contraceptive coverage requirement. Administration
issues final rules on coverage of certain recommended
preventive services without cost sharing, HHS (July
10, 2015) available at https://wayback.archive-it.
org/3926/20170127190158/https://www.hhs.gov/about/
news/2015/07/10/administration-issues-final-rules-oncoverage-of-certain-recommended-preventive-serviceswithout-cost-sharing.html (last visited Apr. 1, 2020).
These employers may opt out of the requirement, and,
by self-certifying their religious objection, they are
guaranteed to be granted their accommodation.
This is a much less rigorous process than applying
for a religious exemption for hoasca tea under
the statutorily imposed process of the Controlled
Substances Act where there is no guarantee that the
accommodation would be granted to all applicants. 21
C.F.R. § 1307.03.
HHS provided a regulatory accommodation allowing
a religious employer, who objected to paying or
participating in the ACA’s contraceptive coverage
requirement, to avoid doing so. Petitioner, though,
demands an exemption from the exemption, claiming

14

that filing the paperwork to indicate it does not
wish to participate in the contraceptive mandate for
religious reasons, itself constitutes an unacceptable
religious burden. Such an exemption is not only not
required under RFRA, it is constitutionally impermissible.
B. A requirement to inform the government that one has a religious objection
to a regulation is not a “substantial”
burden.
RFRA does not outlaw any and all burdens on
religious freedom which cannot be justified by a
compelling government interest implemented in the
least restrictive manner possible. It outlaws substantial burdens on religious freedom which cannot be
sufficiently justified. Congress included the word
“substantial,” and we must assume that when Congress writes a statute, it does so giving deliberate
meaning to the words it uses. INS v. Cardoza-Fonseca,
480 U.S. 421, 432 (1987) (“[W]e have considered ourselves bound to ‘assume that the legislative purpose
is expressed by the ordinary meaning of the words
used.’”) (citations omitted). “In other words, if the law’s
requirements do not amount to a substantial burden
under RFRA, that is the end of the matter.” Priests for
Life v. U.S. HHS, 772 F.3rd 229, 244 (D.C. Cir. 2014),
vacated by, remanded by Zubik v. Burwell, 136 S. Ct.
1557 (2016).
In Hobby Lobby, 573 U.S. at 707, this Court was
faced with determining the meaning of the word
“person” in RFRA. It noted that the first step to be
taken was to look to the Dictionary Act, “which we
must consult ‘[i]n determining the meaning of any Act
of Congress, unless the context indicates otherwise.”
Id. (citing 1 U.S.C. § 1). Nothing in that Act, however,

15

provides a definition of the word “substantial.” Courts
have, however, interpreted the word frequently and its
meaning is apparent. Turning to dictionary definitions, we see a common thread. Substantial means
“[r]eal and not imaginary; having actual, not fictitious
existence. . . . Important, essential, and material; of
real worth and importance.” Substantial, Black’s Law
Dictionary (11th Ed. 2019). It is that which is “[o]f
considerable importance, size, or worth.” New Oxford
Am. Dictionary (3d Ed., Oxford U. Press 2010).
A substantial burden, then, stands in stark comparison to a de minimis one. It is a burden which carries
a certain degree of weight or impact, one that is
considered real and significant, as opposed to minor
and trivial. Where this Court has been required to
determine the meaning of substantial in similar
situations, it is this element of importance which is
emphasized. For example, when determining the
meaning of “substantial evidence,” this Court found
that it is evidence which is “more than a mere scintilla.
It means such relevant evidence as a reasonable mind
might accept as adequate to support a conclusion.”
Richardson v. Perales, 402 U.S. 389, 401 (1971). To be
substantial, evidence must be enough so as to convince
a reasonable person of the conclusion it is put forward
to support. Edison Co. v. Labor Bd., 305 U.S. 197, 229
(1938).
Petitioner relies on a fundamental misunderstanding of RFRA. It claims that the court system has no
place in determining whether a burden on religious
practice is substantial. While it is true that courts
cannot determine religious doctrine, and must therefore accept a sincere claim of a burden on religious
belief, the word “substantial” has a meaning, and it is

16

the role of the court system to determine if a particular
burden reaches that level.
In the present case, petitioner has stated that
providing the government notice of its religious objection is in and of itself a substantial burden on its
religious exercise. Pet.’s Br. Little Sisters, 36-38. But
providing written notice of an objection is merely “the
written equivalent of raising a hand in response to the
government’s query as to which religious organizations want to opt out.” Priests for Life, 772 F.3d at 235.
This Court can accept that the religious employer
believes that providing this notice is against its religious beliefs without finding that doing so is in fact a
substantial burden on its religious exercise.
While the courts may allow religious organizations
to determine for themselves if an activity or prohibition of an activity constitutes a burden for the purposes of that religion, the courts maintain a responsibility to determine if the burden proclaimed by the
religious groups rises to the level of “substantial,”
triggering protection under RFRA.8 With regard to the
burden imposed by signing a piece of paper to indicate
that a religious non-profit is seeking an exemption
8

Indeed, petitioner’s argument, by rendering the word “substantial” superfluous, would reduce any initial decision to be
made under RFRA to a determination as to whether a belief is
sincere. This is a highly subjective exercise and one which, outside of the rights of prisoners to religious exercise, both the courts
and the government are wary of wading into. All that would be
left is a determination of whether the government had a compelling interest which had been implemented in the least restrictive
manner possible. Congress determined that plaintiffs should have
to show a substantial burden before their claim was cognizable
under RFRA. Petitioner should not be permitted to rewrite an Act
of Congress–that is the responsibility of the elected branch of
government.

17

from the requirements of the contraceptive mandate of
the ACA, circuit courts found, rightly, that any such
complicity with a future alleged sin undertaken by a
third party after numerous intervening steps was too
attenuated to rise to the level of being a substantial
burden under RFRA. Geneva College v. Sec. U.S. HHS,
778 F.3rd 422, 442 (3d Cir. 2015), vacated by, remanded by Zubik, 136 S. Ct. 1557 (“[W]here the actual
provision of contraceptive coverage is by a third party,
the burden is not merely attenuated at the outset but
totally disconnected from the appellees.”); University
of Notre Dame v. Sebelius, 743 F.3d 547, 557 (7th Cir.
2015), vacated by, remanded by University of Notre Dame
v. Burwell, 575 U.S. 909 (2015) (“The accommodation
in this case consists in the organization’s (that is,
Notre Dame’s) washing its hands of any involvement
in contraceptive coverage, and the insurer and thirdparty administrator taking up the slack under compulsion of federal law.”). Indeed, were such an extended
and tortured view of causation by distant complicity to
be accepted by this Court, it would lead to illogical and
unacceptable consequences. Infra § IV.
C. Compliance penalties are not a “substantial burden.”
Petitioner claims that refusing to provide the
required notice of its religious objection would lead to
the imposition of fines which constitute a substantial
burden. But the presence of a government sanction of
some sort cannot in and of itself make compliance with
the law a substantial burden. If all it takes for a
burden on religion to be substantial is the claim of the
religious group allegedly impacted, and a penalty for
non-compliance, then the word “substantial” in RFRA
loses all meaning.

18

All government requirements to act, or to refrain
from acting, carry some sort of penalty for noncompliance. Any refusal to obey the requirements of
government is punishable. If a government requirement is not accompanied by such threat of penalty,
that is, if a person is simply told to take an action, or
refrain from an action, but is not penalized for ignoring the government mandate, then there is no burden
on the individual, as refusal to participate would have
no cost. Without a cost for refusal, there simply is no
burden, substantial or otherwise, on religion.
Moreover, petitioner’s argument fails because of one
simple, yet unavoidable, fact – the government provided an accommodation, and the accommodation
provided a way for the petitioner to avoid the involvement and the penalties it finds objectionable. All
petitioner needed to do was let the government know
it wished to avail itself of the accommodation.
It has never been held that a religious group is
permitted to simply ignore a statute. A conscientious
objector cannot simply refuse to turn up when drafted,
but must instead file a claim of religious or philosophical objection to combat and may still be required to
serve in a noncombatant role. 50 U.S.C. § 3806(j). The
religious adherents in O Centro, 546 U.S. 418, who
continue to drink hoasca tea ceremonially, as this
Court ruled was their constitutional right, must still
file for an exemption under the federal Controlled
Substances Act or face substantial criminal penalties
of up to 20 years in prison or $5 million for a first
trafficking offense. 21 C.F.R. § 1308.11. Likewise, looking
back to Yoder, 406 U.S. 205, parents who wish to
remove their children from school on religious grounds
are still required by law to inform school officials of

19

this fact or may be charged with a misdemeanor. Wis.
Stat. § 118.15.
The government is not barred by RFRA from creating a rational, efficient mechanism for implementing
a religious exemption, and requiring those seeking
the exemption to notify the government of their desire
is indisputably rational and efficient. Petitioner was
granted a method of exempting itself from a requirement it claims burdens its religious beliefs. RFRA does
not under any reasonable interpretation require that
petitioner be additionally given the right to refuse to
inform the government of its desire to be exempted.
The nature of the exemption to the draft offered to
conscientious objectors is instructive. In order to
qualify for status as a conscientious objector, whether
available for non-combatant service only (Class 1-A-O)
or not available for any form of military service, and
therefore only available for civilian alternative service
(Class 1-O), a registrant must submit a claim to the
government. This claim “must be made by the registrant in writing” and is only cognizable “after the
registrant has received an order to report for induction.” 32 C.F.R. § 1636.2. The individual then appears
before a board which considers the request, looking
at the documentation submitted, the oral statements
of the claimant, any oral statements from witnesses
presented, and the demeanor of the claimant. 32
C.F.R. § 1636.8. The board then determines which
draft classification to give to the claimant. In order to
be exempted, claimants are required to demonstrate
their beliefs and show sincerity. 32 C.F.R. § 1636.6.
Were petitioner to be successful in achieving its
requested exemption, this entire structure of seeking
conscientious objector status would need to be altered.
Petitioner’s requested relief would not only permit

20

draftees to prevent the military’s replacing them if
exempted, but also allow them to claim that even filing
a written claim or explaining their grounds for objection to the draft board itself would trigger a future sin
and thus was a burden on their religious practices.
Infra § III.
III. PETITIONER’S CASE DOES NOT CONCERN A BURDEN ON RELIGIOUS LIBERTY, BUT RATHER AN ATTEMPT TO
LEGISLATE THROUGH THE COURTS.
As shown, supra, petitioner has failed to demonstrate a substantial burden on its religious beliefs.
Indeed, this case represents a concerted effort, including petitioner, to rewrite RFRA itself. If successful,
Congressional intent in passing the law will be overridden. Rather than having to show a substantial
burden, any plaintiff claiming religious harm will
simply be able to state that a burden is substantial,
and this view will be unchallengeable in the courts,
however attenuated and unconnected the government
required action and the alleged sin may be. Petitioner
has made clear in its briefing that it believes that
courts have no place in determining whether a burden
is substantial. Pet.’s Br. Little Sisters, 38-39. By so
doing, petitioner seeks to eliminate the word substantial from the text of RFRA, acting as if Congress never
included it in the first place.
This case does not involve any real, substantial
burden on religious beliefs. Instead, this case represents no more than a complaint about government
policy. Simply put, petitioner does not want its
employees to participate in a scheme established by
the government for the provision of certain types of
health care services. Opposing the use of contraception
is petitioner’s fundamental right under the First

21

Amendment. However, seeking to prevent insurance
companies from providing such services to its employees on asserted religious grounds interferes with the
rights of those employees. This Court and lower courts
have repeatedly concluded that such claims founded
on dislike for a policy have no merit. Religious disapproval of government policy is entitled to no more
deference than political disapproval.
Frequently, individuals and employers have been
expected to put their own personal disapproval of a
policy aside, even when based on sincerely held
religious convictions, and participate in a scheme of
which they disapprove, when their participation is
sufficiently remote from the outcome. While a conscientious objector may not be compelled to serve in the
military, for example, a similarly sought exemption
from paying taxes to support the military has been
definitively denied, even to Quakers whose sincere
religious belief in pacifism is unquestioned. Adams v.
Commr., 170 F. 3d 173, 180-82 (3d Cir. 1999), cert
denied 528 U.S. 1117 (2000) (despite feasibility of
exempting individuals from tax payments, sincere
beliefs do not exempt an individual from participation
in societal responsibilities such as the payment of tax)
Participation in a government scheme to which a
plaintiff had sincerely held religious opposition was
also required by this Court in Bowen v. Roy, 476 U.S.
693, 712 (1986). Native American parents claimed
that obtaining a social security number for their
daughter violated their religion, and therefore they
should be exempted from the requirement to produce
such a number to qualify for welfare benefits. Id. at
695. Chief Justice Burger was dismissive of the idea
that actions undertaken by the government, even
when attached to the plaintiff’s name in this fashion,

22

could create a religious burden. Id. at 700. (“Roy may
no more prevail on his religious objection to the
Government’s use of a Social Security number for his
daughter than he could on a sincere religious objection
to the size or color of the Government’s filing cabinets.”) The use of the number by the government “d[id]
not itself in any degree impair Roy’s freedom to
believe, express, and exercise his religion.” Id.
This Court has been clear that simply because a
religious group claims substantial harm, “not all
burdens on religion are unconstitutional.” Lee, 455
U.S. at 257. In Lee, this Court unqualifiedly enforced
the rule that religious accommodations sought by
an employer, where granting the exemption to the
employer would impose burdens on third parties,
would not be permitted. This Court refused to grant
an Amish employer an exemption permitting him to
avoid paying social security contributions for his
employees, which would “operate[] to impose the
employer’s religious faith on the employees.” Id. at
261. Importantly, this Court acknowledged that Congress had exempted self-employed Amish from paying
social security contributions for themselves, but
refused to extend that exemption to contributions for
employees, who might not share the same religious
convictions. Id.
These cases reveal the weakness of petitioner’s
argument. In Lee, this Court made clear that the
existence of one or more exemptions does not require
further exemptions, even when the religious belief
involved is similar. That self-employed Amish were
exempted from social security payments did not allow
Amish employers to refuse to pay contributions for
their employees. This Court recognized that the
government was entitled to draw a line and limit such

23

exemptions. Id. at 260 (“Congress has accommodated,
to the extent compatible with a comprehensive
national program, the practices of those who believe it
is a violation of their faith to participate in the social
security system.”). In this case, as in Lee, the government had already provided generous exemptions for
churches and an accommodation for religious nonprofits. It was not required to tailor the exemption
process to suit every individual or group claiming an
exemption. Nor is the government permitted to broaden the scope of the exemption such that the accommodation has an adverse effect on the rights of third
parties.
Bowen, 476 U.S. 693, demonstrates that petitioner
here simply does not have a sufficient interest at stake
in how the government chooses to administer its
program. The plaintiff sincerely believed that giving
his daughter a social security number harmed her
spirit, much as petitioner believes that providing the
government with a form indicating its unwillingness
to participate in a program that provides contraception involves it in sin. But, as the Seventh Circuit has
noted, this belief did not entitle Roy to an accommodation that removed the burden of his providing that
social security number on an application for welfare.
University of Notre Dame v. Burwell, 786 F. 3d 606, 618
(7th Cir. 2015), vacated by, remanded by University of
Notre Dame v. Burwell, 136 S. Ct. 2007 (2016). Like
Roy’s claim, petitioner’s objection is, in the final analysis, a complaint about how the government administers
a program. Just like Roy’s desire to stop the government from issuing a social security number for his
daughter, petitioner’s objection to complying with the
notice requirement, in order to exempt itself from
providing contraceptive coverage, is no more the basis
for an exemption than “a sincere religious objection to

24

the color of the Government’s filing cabinets” in which
such a form would be stored. Bowen, 476 U.S. at 700.
Petitioner’s claims that the court system is powerless to even consider the nature of the chain-of-events
objection, claimed by a religious group seeking an
exemption, lead inevitably to illogical and unacceptable results. The United States has a long history of
granting exemptions to conscientious objectors who
oppose taking part in military action.9 However, were
petitioner’s theory of causation to become accepted,
pacifists would have the right not only to insist that
they themselves not be sent into combat, but also that
the military not be permitted to draft someone in their
place. University of Notre Dame, 743 F. 3d at 556. It is
inconceivable that such a theory of causation is what
the drafters of RFRA had in mind. Id. at 557. (“What
makes this case and others like it paradoxical and
virtually unprecedented is that the beneficiaries of the
religious exemption are claiming that the exemption
process itself imposes a substantial burden on their
religious faiths.”). It would allow individual conscientious objectors to not only remove themselves from
selection for the military, but also to permanently
deprive the military of a replacement out of a belief
that their refusal triggered someone else to be inducted,
and that would be equally as sinful. This would grant
religious individuals and groups not only the power to
seek exemptions for themselves, but also the power to

9

For many years, these exemptions were available only to
those whose objections to war were based on religious beliefs, as
opposed to other, philosophical objections to armed conflict. This
Court in Welsh v. United States, 398 U.S. 333, 343 (1970) recognized this was a violation of the constitutional rights of nonbelievers.

25

legislate unconstitutional government actions from
the pulpit.
The breadth of perverse results of such causation is
unbounded. In Thomas v. Review Bd. of Ind. Empl.
Sec. Div., 450 U.S. 707, 709 (1981), a Jehovah’s
Witness was found to have been wrongly denied
unemployment benefits after quitting his job in a roll
foundry when he was transferred to a department
where he would be producing turrets for tanks for the
military, a use he found incompatible with his religious beliefs. Petitioner here would have us extend
Thomas’ exemption further. Not content with a right
for Thomas to seek a transfer to another position that
did not challenge his religious beliefs, petitioner’s
arguments would grant him the right to ensure that
no other employee could take over the position he had
left, and the spot on the production line for tank
turrets would be permanently empty, in order to spare
Thomas the religious burden of having triggered
someone else’s now making tank turrets, however
willing that next person might be.
While a Muslim employee may have a religious right
to be transferred from a job that involves the sale of
alcohol, it is implausible to suggest that the employee
possesses an equal right to seek to have that position
remain unfilled on the ground that some other cashier
scanning a bottle of Cabernet Sauvignon is only in that
position because the Muslim employee refused to fill
it. Jewish employers may choose not to purchase pork
products, and it would violate their religious rights to
require them to do so. Yet no court could hold that such
employers have the right to insist that their employees
refrain from using what these employers pay them to
purchase bacon. And, as noted supra, the Amish who
were self-employed were permitted to refrain from

26

paying their own social security contributions, as such
contributions would potentially undermine the Amish
religious principle of self-reliance. This did not, however, allow them to avoid such payments for their
employees. Lee, 455 U.S. at 261. That employees, who
did not share their employers’ beliefs, might possibly
be triggered to move away from self-reliance was not
held to be a burden sufficient to require an exemption.
This then is the logical end of petitioner’s theory of
causation. If signing a piece of paper indicating a
religious-based opposition to providing contraceptive
health services, and thereby taking advantage of an
exemption to a requirement to provide such services,
is in and of itself a substantial burden on religion
through an attenuated “trigger” theory, then so would
countless other actions become substantial burdens.
Employers would find themselves unable to replace a
worker they reassigned to accommodate that individual’s religious belief system. The military would find
itself unable to fill its ranks in times of conscription
as religious objectors could not be replaced, even by
individuals without a religious objection to being
drafted. A juror excused from duty on a capital case
because of a religious opposition to capital punishment
could not be replaced with a substitute, as the presence of a substitute juror’s voting in favor of the death
penalty was in some way triggered by the initial
person’s refusal to serve on the panel. Such an
outcome was never the goal of RFRA, and would be
unconstitutional, even if it were the intention.

27

IV. THE GOVERNMENT HAS A COMPELLING INTEREST IN ENSURING THE
WIDESPREAD AVAILABILITY OF CONTRACEPTIVE SERVICES TO WOMEN.
There are enormous benefits that accrue to society
from the widespread availability of no-cost contraception to women in society. There can be no doubt
regarding either the central role that preventive and
reproductive health care plays in enabling women to
participate fully in society, or the cost of the provision
of such care if the individual has to pay for it. Under
the ACA, millions of women were, for the first time,
given a legal guarantee that their health insurance
would cover the cost of all FDA approved contraceptive
services. Petitioner seeks to remove that legislative
right not only from their own employees, but also, by
extension, from millions of other women who are
employed by corporations which may seek such a
religious-based exemption.
The cost of contraceptive care is far from de minimis.
Studies by Planned Parenthood have shown that the
cost of an intrauterine device (“IUD”), one of the most
reliable forms of contraception available, including the
fees for the required medical examinations, insertion,
and ongoing follow up visits, may reach as high as
$1,300.10 Oral contraceptives, the most commonly covered form of contraception used under the mandate,
are less expensive up front, but require an ongoing
payment. These drugs cost, on an annualized basis,
between $180 and $960, with the cheaper, generic
contraceptives often being reported as causing un-

10

Planned Parenthood, IUD, https://www.plannedparenthood
.org/learn/birth-control/iud (last visited Apr. 1, 2020)

28
11

pleasant side effects. Emergency contraception, such
as the “Morning After Pill,” ranges in cost from $30 to
$65 per dosage.12
The direct costs of purchasing contraception fall
largely upon women. Women of child-bearing age
pay 68% more than men of the same age in out-ofpocket medical costs. Hobby Lobby, 573 U.S. at 742
(Ginsburg, J., dissenting). A significant part of this
cost can be attributed to the cost of contraception.
Removal of this disparity between health care costs for
men and women is, in and of itself, a compelling
interest for the government. The government interest,
however, goes beyond the desire to seek greater
equality for women. The widespread availability of
contraception without copayments benefits the government and society by reducing the numbers of
unplanned and unwanted pregnancies. This, in turn,
reduces the burden on medical facilities, reduces the
burden on schools and social services, and even
reduces the number of abortions performed.13 Studies
11

Frederick M. Gedicks & Rebecca G. Van Tassell, RFRA
Exemptions from the Contraception Mandate: An Unconstitutional Accommodation of Religion, 49 Harv. C.R.-C.L. Rev. 343,
376 (2014) (noting also that the lower cost contraceptive pills
were less effective in preventing conception).
12

Planned Parenthood, Emergency Contraception (MorningAfter Pill), https://www.plannedparenthood.org/get-care/our-ser
vices/emergency-contraceptive (last visited Apr. 1, 2020); purchasing one brand of Emergency Contraception, Plan B, manufactured by Teva Pharmaceuticals, over the counter costs around
$50 per use. E.g. CVS, Plan D One-Step Emergency Contraception
Tablet,
https://www.cvs.com/shop/plan-b-one-step-emergencycontraceptive-tablet-prodid-876669 (last visited Apr. 1, 2020)
13

While amici fully defend a woman’s right to a legal and safe
abortion, they also believe that the availability of low and no cost
contraception, combined with effective education as to its use,

29

have indicated that each dollar spent on helping
women avoid unwanted pregnancy reduces Medicaid
expenditure by $7.09.14 These savings, combined with
the increased ability of women to control their own
bodies and make their own reproductive choices,
enabling them to fully participate in society on an
equal basis, represent a compelling interest for the
government in ensuring the widespread availability of
contraception without copayments.
Petitioner argues repeatedly that the existence
of exemptions for some groups indicates that the
government interest cannot be considered compelling.
This, however, misrepresents the governmental and
societal interest at stake in the contraceptive mandate. It is fallacious to suggest that unless the
mandate can cover everyone, the government has no
interest in enforcing it. The compelling interest here is
not necessarily that all women in the United States
should have access to contraception without copayments, but that as many women as possible should
have such access. Government programs are not all or
nothing efforts. The governmental interest in preventing malnutrition among poor children through the
SNAP program is not diminished when the program
does not reach every child in need. Furthermore, if
petitioner’s logic were followed through to its end, then
no exemption, religious or otherwise, could be offered
to any group, because offering it would immediately
indicate that there was no compelling interest behind

would prevent many unwanted or high risk pregnancies, thus
reducing the need for abortions.
14

J.J. Frost, et al., Return on Investment: A Fuller Assessment
of the Benefits and Cost Saving of the US Publicly Funded Family
Planning Program, 92 Milibank Q. 667, 668 (2014).

30

the law in the first place.15 The government, as is its
right, has drawn the line for exemptions. This in no
way diminishes the compelling nature of the interests
at stake.
CONCLUSION
For the above reasons, this Court should affirm the
judgment of the U.S Court of Appeals for the Third
Circuit.
Respectfully submitted,
NICHOLAS J. LITTLE
CENTER FOR INQUIRY, INC.
1012 14th St. NW
Suite 205
Washington, D.C. 20005
GEOFFREY T. BLACKWELL
AMERICAN ATHEISTS
718 7th St. NW
Washington, D.C. 20001

EDWARD TABASH
Counsel of Record
11500 West Olympic Blvd.
Suite 400
Los Angeles, CA 90064
(310) 279-5120
etabash@centerforinquiry.org
MONICA L. MILLER
AMERICAN HUMANIST
ASSOCIATION
1821 Jefferson Place, NW
Washington DC 20036

Counsel for Amici Curiae
April 8, 2020

15

While amici maintain religious exemptions are unconstitutional, supra n.4, their existence does not diminish the compelling
nature of the government interest.

